Legal - Litigation
3620 Hacks Cross Road
Building B, 3rd Floor
Memphis, TN 38125

March 4, 2021

Telephone 901-434-8519
Fax 901-434-9271
frederick.douglas@fedex.com

Supreme Court, U.S.
FILED

MAR 0 4 2021
OFFICE OF THE CLERK

VIA FedEx Overnight Shipping
Scott S. Harris
Clerk of the Supreme Court of the United States
U.S. Supreme Court Building
One 1' Street N.E.
Washington, D.C. 20543
RE: Roddie Melvin v. Federal Express Corporation
Case No. 20-1107
Dear Mr. Harris:
Petitioner Roddie Melvin filed a petition for a writ of certiorari in this case. Upon review
of the petition, respondent Federal Express Corporation, waives the right to file a brief in
opposition, as the case does not warrant review by this Court. If the Court wished to see a brief in
opposition, we will promptly file one.
Sincerely,

Frederick L. Douglas, Lead Counsel
FedEx Express Legal-Litigation
(901)434-8519
frederick.douglasAfedex.com
*Licenses Only in Tennessee, Georgia, and
Colorado
cc: Amanda Farahany, Esq (via email)

RECEIVED
MAR - 8 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

